UNITED STATES DEPARTMENT OF AGRICULTURE

      OFFICE OF INSPECTOR GENERAL




    STATEMENT OF PHYLLIS K. FONG

           INSPECTOR GENERAL


                    Before the

       U.S. HOUSE OF REPRESENTATIVES
        COMMITTEE ON AGRICULTURE
      Subcommittee on Department Operations,
          Oversight, Nutrition, and Forestry

                       ON


RECENT CHANGES TO THE FOOD STAMP PROGRAM


                  July 24, 2003
                             STATEMENT OF
                            PHYLLIS K. FONG
                          INSPECTOR GENERAL
                   U.S. DEPARTMENT OF AGRICULTURE
               BEFORE THE U.S. HOUSE OF REPRESENTATIVES
             COMMITTEE ON AGRICULTURE, SUBCOMMITTEE ON
             DEPARTMENT OPERATIONS, OVERSIGHT, NUTRITION
                             AND FORESTRY

                                      July 24, 2003


Good afternoon, Mr. Chairman, and members of the committee. I appreciate the

opportunity to testify regarding how well the Food Stamp Program is doing, how changes

introduced through the 2002 Farm Bill have affected the program, and how the program

might continue to improve.



Considering the size of the Food Stamp Program (over $18 billion of benefits issued in

fiscal year (FY) 2002), the program is working reasonably well. While FNS has worked

diligently with States to reduce errors in issuing program benefits, there is always room

for improvement. The recent changes made in the Farm Bill were, in fact, designed to

improve program administration; these changes were made to provide the States

flexibility in administering the program, improve access to program benefits, simplify

program eligibility requirements, and enhance program integrity. The impact of these

changes, however, will not be known for some time.



The OIG has a long history in identifying fraud, waste, and abuse in USDA programs.

OIG and the Food and Nutrition Service (FNS) have an excellent working relationship;

our staffs have worked collaboratively to improve program integrity and to identify




                                             1
improvements needed in program administration, particularly as FNS moved forward to

implement the delivery of food stamp benefits through electronic benefits transfer (EBT)

systems. FNS has taken positive actions to implement many of our recommendations and

we look forward to working with them as these new legislative initiatives are fully

implemented.



After a brief overview of the Food Stamp Program, I will address three challenges facing

FNS in its administration and management of the Food Stamp Program. One of these

challenges will be to fully implement the Improper Payments Act and President’s

Management Agenda initiative of reducing improper (erroneous) payments. FNS is the

only USDA agency that has had a statistically based quality control program (limited to

its Food Stamp Program) in place to measure the extent of improper payments. FNS’

challenge will be to continue to work with States to minimize and/or prevent erroneous

payments before “they go out the door.” Another challenge that is more difficult to

address is fraud; unscrupulous parties can always find ways to circumvent existing

controls. We will continue to work with FNS to strengthen program integrity through our

audits and investigations. Finally, while FNS is very close to successful implementation

of EBT systems in all States, one of the largest States (in terms of program benefits

issued) still needs to come “on-line”. I will also update you on “Operation Talon.” This

initiative was put in place by OIG as a result of the Welfare Reform Act of 1996 to locate

and apprehend fugitives who were illegally receiving food stamp benefits, thereby

ensuring that program benefits go to those who are truly in need.




                                             2
Food Stamp Program

The Food Stamp Program provides monthly allotments to households in the form of

paper coupons or electronic benefits transfer (EBT) cards, which work like ATM cards at

authorized retailers. People apply for benefits at State or local (e.g., county) welfare

offices that certify eligibility based on a household’s level of income and other resources.

FNS funds the benefits and administers the program in cooperation with State agencies.

In 2002, an average of 8.2 million households received just over $18 billion in food

stamp benefits.




Electronic Benefits Transfer (EBT) Systems

FNS has been at the forefront of developing and implementing electronic delivery of

program benefits through EBT. In 1984, FNS began pilot implementation of EBT

systems to deliver food stamp benefits and was the first Federal agency to publish

standards for EBT systems. FNS now estimates that about 91 percent of the participating

households receive food stamp benefits, representing 91 percent of the total program

benefits issued, through EBT systems. The 1996 Welfare Reform Act mandated that all

States use EBT systems by October 2002. As of July 2003, 47 systems are up and

running State-wide and in the District of Columbia and the Virgin Islands. California,

Delaware, Iowa, and Guam have EBT systems only in some county or local areas. FNS’

challenge will be to work with State and county administrators to complete final EBT

implementation.




                                              3
Since 1986, OIG has actively monitored and reviewed EBT system development and

deployment by FNS, as well as EBT implementation in 28 States. Our audits were

designed to determine whether controls were in place and working to ensure that EBT

systems could timely and accurately provide and account for program benefits. We also

evaluated whether EBT program data was being used as a management tool to monitor

and effectively administer the Food Stamp Program. FNS has consistently reacted

positively to our recommendations and has worked with the States to address any

weaknesses or vulnerabilities we have identified. Overall, we have found that EBT

systems are doing what they are designed to do – to provide effective electronic delivery

and accountability of program benefits. However, more can be done in analyzing EBT

data to identify questionable transactions that may be indicators of potential fraud and/or

misuse of program benefits. EBT systems provide an electronic transaction record,

making it easier to identify problem retailers and recipients, something that was not

possible under the paper coupon system.     We will continue to audit EBT systems as

issues emerge or when new State contracts with EBT processors are awarded.



Our audits have also identified computer (IT) security concerns at States relating to

access controls over EBT systems. We found that States did not always have controls in

place to remove access to EBT systems when employee duties or employment status

changed. Those States we reviewed took immediate action on our recommendations to

reduce this vulnerability. We have also found that even when employees have been

authorized access to EBT systems, food stamp caseworkers (those State and/or county

employees responsible for determining the eligibility of households for food stamp




                                             4
benefits) sometime use their access to commit fraud in return for financial kickbacks. In

some of our investigations, we found caseworkers used their EBT access to make

unauthorized payments to ineligible individuals. One caseworker issued over $80,000 in

food stamps and benefits to 2 fictitious families; those fictitious families supposedly had

13 family members. The caseworker admitted using the food stamp benefits to purchase

food for herself and her family. The caseworker and a co-conspirator pled guilty to theft

and embezzlement of public monies, as well as unlawful possession of food stamps.

These individuals were sentenced to 21 months in jail and ordered to pay restitution.



Retailer Abuses

Fraud and abuse in the Food Stamp Program generally occur when individuals sell their

benefits for a fraction of its face value. Known as trafficking, this practice remains an

area of significant mutual concern for FNS and OIG. FNS has recently estimated that

between 1999 and 2002 authorized retailers trafficked over $395 million each year, or 2½

cents of every food stamp dollar issued. This estimate was made using data from FNS

compliance investigations of authorized retailers.



The advent of EBT has not prevented fraud from occurring –food stamp trafficking has

just moved primarily from the street to the store. Since only authorized retailers can

redeem program benefits, OIG has been concerned about the legitimacy and eligibility of

these retailers to participate in the Food Stamp Program. We have testified in the past

about the need for on-site reviews to determine if a retailer should be authorized or

reauthorized to participate. In a 1995 review of retailer eligibility entitled “Food Stamp




                                             5
Program, Store Eligibility Task Force,” we visited over 5,000 authorized stores and found

more than 850 that should have been ineligible and another 450 whose eligibility was

questionable. These stores had minimal or no staple foods, were out of business, or, at

the time of our review, did not exist. FNS had routinely authorized stores to participate

based solely on information submitted by the retailers in their application. Site visits

were not a requirement for either authorization or reauthorization. For both processes,

we recommended that FNS conduct routine onsite visits prior to approval.



In response to OIG’s review, FNS hired outside firms to verify retailer information

through onsite visits. FNS required the contractors to complete a food inventory

checklist and to take photographs of each store’s layout. We reviewed this process and

found it to be effective in determining those retailers eligible for participation in the

program. When we began reviewing retailer eligibility in 1995, there were about 208,000

authorized retailers. At the end of FY 2002, through on-site monitoring and critical

assessments, that number had been reduced to 146,000. FNS must remain vigilant in

identifying and addressing problem retailers.



As previously mentioned, EBT systems provide data that can help identify questionable

transactions and retailers by providing an electronic record of individual transactions.

With the majority of food stamp benefits now being issued through EBT systems, OIG’s

focus needs to remain on using this data to identify problem retailers and refining

analyses as problem retailers change their techniques to avoid detection. Between 1996

and 2002, we conducted 2,235 food stamp retailer-related investigations. Over the past 7




                                               6
years, our investigations in the Food Stamp Program have resulted in 2,969 indictments,

2,740 convictions, and over $264 million in monetary judgments. The overwhelming

majority of these results are attributed to retailer cases.



FNS can also take administrative action against authorized stores that violate food stamp

regulations using its own analyses of EBT data. These actions include temporarily or

permanently disqualifying stores and owners. When an FNS compliance investigation

uncovers a trafficking operation, FNS alerts OIG about a potential criminal investigation.

Since FY 1996, OIG has opened 1,159 trafficking investigations based on FNS referrals.



One example of an OIG investigation based on an FNS referral happened in Philadelphia.

Through a joint investigation with FNS Compliance and the U.S. Secret Service, we

found two owners of an authorized store had fraudulently redeemed $1.3 million in EBT

benefits. These individuals were sentenced to either prison or home detention and

ordered to pay $1.3 million in restitution. In addition, one of the owners agreed to testify

against the food stamp recipients who sold him their benefits. So far, the owner has

identified about 3,000 recipients; 2,000 of them have been notified they will be removed

from the food stamp rolls. The State of Pennsylvania has also indicted over 120

recipients in this matter.



Over the last few years, we have investigated a number of food stamp trafficking cases

involving the transfer of monies overseas. As a result of these cases, which often involve

a large amount of money, we are participating in Federal Joint Terrorism Task Forces




                                               7
(JTTF) around the country, as well as Operation Green Quest (a national project to

identify mechanisms used to transfer funds overseas to terrorist groups). An OIG

representative serves on the National JTTF, and we currently have active investigations

with many of the 44 local JTTFs.



In one overseas transfer case, we uncovered a network of stores owned by individuals

who trafficked in food stamp benefits. Most of the trafficking occurred at a video store

located a few storefronts away from a food stamp issuance center. The video store would

get cash from another store in the scheme and use the money to buy food stamps from

people who had just received them. The video store would turn around and give the

illegally obtained food stamps to an authorized retailer for redemption. Due to the large

volume of benefits fraudulently collected, many authorized retailers had to be involved in

the network so that FNS would not be tipped off by evidence that one store was

redeeming too many food stamps. During this investigation, we discovered that

approximately $1 million was transferred overseas. Two of the retailers, who pled guilty

and were issued a court judgment against them of over $71 million, have fled the country.



Improper Payments


Eligibility for the Food Stamp Program is generally based on an applicant’s household

income and other resources such as bank accounts and real estate. Certain deductions are

allowed from a household’s gross income including dependent care, shelter, medical, and

child support payments. Applicants must provide proof of income in order to participate.




                                            8
Since 1974, FNS has measured payment accuracy using a statistical sampling system

called the Quality Control (QC) system.


Every month, each State reviews a sample of households receiving food stamp benefits

and those denied benefits, to measure payment accuracy (overpayments and

underpayments) and the correctness of decisions to deny benefits. Between fiscal years

1993 and 2002, the national annual error rates have fluctuated between 10.81 percent and

8.26 percent. For fiscal year 2002, out of about $18.2 billion in total issuances, about

$1.5 billion was erroneous (approximately $1.1 billion was over issued and $384 million

was under issued).



FNS’ analyses of the causes of such error rates for fiscal year 2000 (the latest year the

results of such analyses were published) show that 54 percent of the dollar errors were

the fault of the certifying agency while the rest were attributed to the food stamp

recipients. Determining or reporting income makes up over half of the errors—the

biggest factor. Deductions from the household’s gross income are the next most prone to

error at about 28 percent.



We note that the Food Stamp Reauthorization Act of 2002 contains provisions to simplify

the definitions of income, utility allowances, housing costs, resources, and deductions.

These provisions became effective October 1, 2002, and FNS plans to publish

corresponding regulations as soon as possible. While one would expect these provisions

to result in fewer certification errors, it will depend on how well FNS and the States

implement them. We will not know whether these changes will impact the error rate



                                             9
until FY 2004 data is tested and FNS analyzes and reports the QC results, which should

occur in mid-FY 2005.



Although one would expect that high error rates in payment accuracy are caused by large

increases in participation without corresponding increases in State certification personnel,

we found this not to be the case. Between 1995 and 2001, the number of participating

households declined significantly, with a 34 percent decrease in program outlays. Yet,

the error rate for that period only declined 11 percent. This indicates that error rates are

not directly linked to participation levels.



Reducing the error rate, and corresponding program losses, has remained an area of focus

for FNS. The Under Secretary for Food, Nutrition and Consumer Services, stated in his

FY 2003 budget hearing that the Department will focus on States with the most serious

problems and the highest error rates. The Department has recently fined California,

Michigan, and Wisconsin, the three States with the highest error rates for 2002.



The current law imposes QC liabilities each year a State’s payment error rate is above the

national average. Recent legislation (2002 Farm Bill) made substantial changes to FNS’

quality control system. Effective for FY 2003, the reforms raise this error rate threshold

so that States are not penalized unless there is a 95 percent probability that their error rate

exceeds 105 percent of the national average for 2 consecutive years. The law also

contains various provisions for waiving penalties and provides bonuses for high

performance. The impact of these changes on the payment accuracy rate and FNS’




                                               10
ability to encourage corrective actions by State administering agencies may not be known

until FY 2005. We plan to monitor implementation of these program changes and their

impact on FNS’ ability to encourage actions by States to reduce their error rates.



Operation Talon: Fugitive Felons Made Ineligible To Receive Food Stamp Benefits

The 1996 Welfare Reform Act made felony fugitives ineligible for food stamps. This

law allows for comparing law enforcement fugitive felony information with food stamp

recipient records. Under this provision, OIG created “Operation Talon” in conjunction

with other law enforcement agencies across the United States to locate and apprehend

fugitives illegally receiving program benefits.



Since its inception in early 1997, Operation Talon has resulted in 8,793 arrests,

simultaneously getting many dangerous criminals off the welfare rolls and off the streets.

Serious crimes perpetrated by those arrested include homicide offenses, sex offenses,

kidnapping, assault, robbery, and narcotics. For example, Operation Talon identified an

individual who, along with two others, was alleged to have executed a victim as part of a

cocaine distribution conspiracy. OIG agents and detectives from the New Jersey State

Police, the New York State Police, and the New York City Police Department

apprehended the individual at the address he reported on his food stamp application.



Since they determine food stamp eligibility, individual States are best positioned to

estimate how much money Operation Talon has saved. It is difficult, however, for most

States to determine cost savings because, even though a fugitive is removed from




                                            11
eligibility, there may be other people in that household who receive benefits. New

Jersey, which has developed a formula for approximating savings, estimates that

$1.9 million has been saved since 1996 in that State.



                                     CONCLUSION



You asked me here today to talk about my view of the Food Stamp Program and how it

can do better. The Food Stamp Program is working reasonably well, but it faces three

major challenges – two systemic and one criminal.



There will always be people looking for ways to take advantage of the system. Food

stamp traffickers will continue their attempts to defraud the program. As I have made

clear in this testimony, however, transaction records provided by the EBT system make it

easier to catch even the cleverest swindlers. FNS and States must continue to use this

data to better manage and administer the Food Stamp Program to identify questionable

transactions and remove those who abuse the program from participation.



The second challenge, as I see it, is for FNS to continue its success in lowering the

payment accuracy error rate, as well as to put control processes in place to prevent

erroneous payments from being made in the first place. Although this rate has come

down since FY 1993, the magnitude of erroneous payments, over $1.5 billion, is still

material to the overall program. FNS must continue on its path of working with States to

develop and implement action plans to reduce the high error rates.




                                             12
The third challenge is getting all States to fully implement EBT systems. FNS has made

great progress, but three States still do not have statewide systems in place even though

the mandated deadline has passed. One of those States, California, is the largest in terms

of benefits issued.

.

Finally, OIG is concerned that, on the surface, the recent changes made in the 2002 Farm

Bill may have weakened FNS’ QC process and its ability to encourage States to reduce

their error rates. The impact of these changes, however, will not be known until the first

3-year cycle of determining the penalties to be assessed and bonuses to be paid to the

States has been completed.



OIG will continue to work collaboratively with FNS through our audits and

investigations to improve program administration, as well as its integrity. Our audit work

during the next year will continue to focus on FNS and State implementation of EBT

systems. We will also monitor the impact of the recent legislative changes to its quality

control system and error rate reduction activities. In terms of our investigative activities,

we will continue to work with FNS to identify and pursue prosecution of those who

violate the Food Stamp law.



This concludes my statement. I would be pleased to entertain any questions the

committee may have.




                                             13
